Van

C@OCKLE

Legal Briefs

2311 Douglas Street
Omaha, Nebraska 68102-1214

Est. 1923
1-800-225-6964
(402) 342-2831
Fax: (402) 342-4850 No. 19-847
JONATHAN REISMAN,
Petitioner,

E-Mail Address:
contact@cocklelegalbriefs.com

Web Site
www.cocklelegalbriefs.com

Vv.
ASSOCIATED FACULTIES OF THE UNIVERSITY OF MAINE, ET AL.,

Respondents.

AFFIDAVIT OF SERVICE

I, Andrew Cockle, of lawful age, being duly sworn, upon my oath state that I did, on the Sth day of February, 2020, send out
from Omaha, NE 4 package(s) containing 3 copies of the BRIEF OF THE CATO INSTITUTE AS AMICUS CURIAE
SUPPORTING PETITIONER in the above entitled case. All parties required to be served have been served by Priority Mail.

Packages were plainly addressed to the following:
SEE ATTACHED

To be filed for:
Tlya Shapiro
Counsel of Record
Trevor Burrus
Michael T. Collins
CATO INSTITUTE
1000 Mass. Ave., N.W.
Washington, D.C. 20001
(202) 842-0200
ishapiro@cato.org

Subscribed and sworn to before me this 5th day of February, 2020.
Tam duly authorized under the laws of the State of Nebraska to administer oaths.

PATRICIA BILLOTTE

General Notary _ *
State of Nebraska ‘ Ls Qu.draw-
My Commission Expires Nov 24, 2020 a S

 

Notary Public

39358
 

| Keornaye for Petitioner

Andrew Michael Grossman Baker & Hostetler LLP 202-861-1697
Counsel of Record 1050 Connecticut Avenue, N.W.
Suite 1100
Washington, DC 20036
agrossman@bakerlaw.com

Party name: Jonathan Reisman

 

Attorneys for Respondents

Susan P. Herman Office of the Attorney General 207-626-8814
Counsel of Record 6 State House Station
Augusta, ME 04333

susan.herman@maine.gov

Party name: State of Maine

Jacob Raffel Karabell Bredhoff & Kaiser, P.L.L.C. 202-842-2600
Counsel of Record 805 15th Street, N.W. Suite 1000
Washington, DC 20005

jkarabell@bredhoff.com

Party name: Associated Faculties of the University of Maine

Linda Dufty McGill Bernstein, Shur, Sawyer and Nelson, PA 207-228-7226
Counsel of Record 100 Middle Street
PO Box 9729

Portland, ME 04104-5029

Imegill@bernsteinshur.com

Party name: University of Maine at Machias, the Board of Trustees of the University of Maine
System

 

 

 
